Supreme Court, U.S.
FILED

OCT 2 9 2320
OFFICE OF THE CLERK

In tl)t Supreme Court of tfje ®mteb States
In re Brian E. Vodicka

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF TEXAS

PETITION FOR WRIT OF CERTIORARI

Brian E. Vodicka, Pro Se
2601 NW 3rd Ave.
Wilton Manors, FL 33311
(954) 716-9375

QUESTIONS PRESENTED
This Court’s unanimous decision in Riley v. California 134 S. Ct. 2473 (2014)
held that the warrantless search and seizure of digital contents of a cell phone during
an arrest is unconstitutional. This Court’s decision in Carpenter v. United States 138
S. CT. 2206 (2018) held that a warrant is required for police to access cell site location
information from a cell phone company. Without warrants, the above searches and
seizures constitute violations of Fourth Amendment right to be free from
unreasonable searches. The trial court ordered the enforcement of a subpoena issued
by a private citizen debt collector and served on Petitioner’s cell phone company to
search and seize the digital content (including cell site location information) related
to Petitioner’s cell phone. Simultaneously, the trial court entered an order granting
the private citizen the authority to disclose third parties any document obtained from
the cell phone company. Upon requests for review, the state appellate court denied
Petitioner’s petition for writ of mandamus followed by the state supreme court
denying Petitioner’s petition for writ of mandamus. The questions presented are:
1. Whether, in holding that a private citizen can lawfully search and seize the
digital contents of a cell phone without a warrant, the state supreme court decision
directly conflicts with this Court’s decisions in Riley and Carpenter.
2.

Whether the state supreme court’s denial of the petition for writ of

mandamus was arbitrary and capricious.

ii

PARTIES TO THE PROCEEDINGS
Petitioner Brian E. Vodicka was a defendant in the trial court and a relator in
the court of appeals and supreme court.
Respondent Michael B. Tobolowsky, Executor of the Estate of Ira E.
Tobolowsky, was the plaintiff in the trial court, a real party in interest to this
mandamus petition in the court of appeals, and a non-participating real party in
interest to this mandamus petition in the supreme court.
Respondent Honorable Judge Donald J. Cosby was the trial court presiding
judge and a non-participating respondent to this mandamus petition in the court of
appeals and supreme court.
Respondent Stephen C. Schoettmer was the counsel of record for the trial court
plaintiff and a non-participating counsel for real party in interest to this mandamus
petition in the supreme court.
Respondent Steven B. Aubrey was a defendant in the trial court, a real party
in interest to this mandamus petition in the court of appeals, and relator to this
mandamus petition in the supreme court.

iii

RELATED PROCEEDINGS
14th District Court Dallas County, Texas:
Tobolowsky v. Aubrey and Vodicka, No. DC-15-08135 (Aug. 22, 2019) (granting
motion for reconsideration)
Tobolowsky v. Aubrey and Vodicka, No. DC-15-08135 (Aug. 22, 2019) (granting
motion for reconsideration)
Fifth Court of Appeals of Texas:
In re Brian E. Vodicka, No. 05-19-01067-CV (Sept. 10, 2019) (granting motion to
stay trial court’s orders granting reconsideration and modification)
In re Brian E. Vodicka, No. 05-19-01067-CV (Jan. 10, 2020) (denying petition for
writ of mandamus and lifting the stay orders)
Texas Supreme Court:
In re: Brian E. Vodicka and Steven B. Aubrey, No. 20-0042 (Jan. 30, 2020)
(granting motion to stay the trial court’s order granting reconsideration)
In re: Brian E. Vodicka and Steven B. Aubrey, No. 20-0042 (Feb. 4, 2020)
(granting motion to stay the trial court’s order granting modification)
In re: Brian E. Vodicka and Steven B. Aubrey, No. 20-0042 (June 5, 2020)
(denying petition for writ of. mandamus and lifting the stay orders)
In re: Brian E. Vodicka and Steven B. Aubrey, No. 20-0042 (July 31, 2020)
(denying motion for rehearing)

iv

TABLE OF CONTENTS
INTRODUCTION

1

OPINIONS BELOW

2

JURISDICTION

2

CONSTITUTIONAL PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

A.

Factual Background

3

B.

The federal question was reviewed by the trial court

5

C.

The federal question was reviewed by the court of appeals

7

D.

The federal question was reviewed by the supreme court

9

REASONS FOR GRANTING THE PETITION
A.

B.

C.

D.

11

The court of appeals relied on Respondent’s interpretation of Carpenter:
A person suspected of a crime has greater rights and protections under
the U.S. Constitution a than a citizen who is not suspected of a crime....

12

The orders and opinions of the trial court, court of appeals, and
supreme court have decided an important federal question in
a way that conflicts with relevant decisions of this Court......... .

15

The court of appeals failed to apply the proper legal standard in
its memorandum opinion, holding that Petitioner failed to “show
both that the trial court has clearly abused its discretion and that
relator has no adequate appellate remedy”.......................................

17

Mandamus is appropriate to correct clear and indisputable legal
errors of the trial court, court of appeals, and supreme court......

18

CONCLUSION

18

v

APPENDIX A — Court of appeals order (January 10, 2020)

la

APPENDIX B — Court of appeals memorandum opinion (January 10, 2020)

2a

APPENDIX C — Trial court order (August 22, 2019)

4a

APPENDIX D — Trial court order (August 22, 2019)

6a

APPENDIX E — Supreme Court order (June 5, 2020)

8a

APPENDIX F — Supreme Court order (July 31, 2020)

11a

APPENDIX G — Court of appeals order (September 10, 2019)

12a

APPENDIX H — Supreme Court order (January 30, 2020)

13a

APPENDIX I — Supreme Court order (February 4, 2020)

14a

TABLE OF AUTHORITIES
Cases:
Carpenter v. United States
138 S. CT. 2206 (2018).

6, 7, 8, 9, 12, 13, 14, 15, 17, 18

Katz v. United States,
389 U.S. 347 (1967)

1, 6, 9,13,14

Boyd v. United States,
116 U.S. 616 (1886)

6, 14, 16

Camara v. Municipal Court of City and County of San Francisco,
387 U.S. 523 (1967).......................................................................

6

Griswold v. Connecticut
381 U.S. 479 (1965)..

8

In re Southwestern Bell Telephone Co.,
43 Tex. Sup. Ct. J. 1007 WL 854253 (Tex. June 29, 2000) (per curiam)

17

In re Sw. Bell Tel. Co.,
35 S.W.3d 602, 605 (Tex. 2000) (orig. proceeding).

17

vi

Jones,
565 U. S., at 430

13

Riley v. California,
134 S. Ct. 2473 (2014)

6, 7, 9, 13,14

Smith v, Maryland,
442 U.S., at 740, 99 S. Ct. 2577

6, 9

Urbish v. 127th Judicial Dist. Court,
708 S.W.2d 429, 431 (Tex. 1986) (orig. proceeding)

17

State Statutes
28 U. S. C. § 1257(a)

1

Tex. Govt Code § 22.00l(a)(3)(6)

6

Tex. Govt Code § 22.221

6

Rules
Tex. R. Crv. P. 329b

12

Constitutional Provisions
TEX. Const, art. V Section 5(c) and 6

17

U. S. Const, amend. IV

2, 8, 12, 15

Other Authorities
Electronic Communications Privacy Act

15

Stored Communications Act

15

vii

in tiie Supreme Court of tfjo Uniteii States
No.
In re Brian E. Vodicka
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF TEXAS
PETITION FOR WRIT OF CERTIORARI
Petitioner Brian E. Vodicka respectfully petitions for a writ of certiorari to
review the judgment of the Supreme Court of Texas in this case.
INTRODUCTION
This case involves a trial court authorizing a debt collector to execute thirdparty subpoenas on cell phone providers to search and seize private and confidential
digital contents of a cell phone. While this Court held that warrantless search and
seizure of cell phone digital content during an arrest by police is unconstitutional, the
state courts have ruled that bill collectors are not held to the same standard as law
enforcement and without probable cause or warrants, subpoenas served by a lawyer
is sufficient to search and seize the same content. This petition is being presented
because of glaring conflict between this Court’s decisions and the recent rulings in
state courts, which if not corrected, promotes a dangerous legal precedent that upends
long established industry standards precluding debt collectors from collection efforts
that violate a debtor’s “reasonable expectation of privacy.” See Katz v. United States,
389 U.S. 347 (1967).
1

OPINIONS BELOW
The memorandum opinion of the court of appeals is attached as Appendix B
(App. 2a-3a). The orders of the trial court are attached as Appendix C (App. 4a-5a)
and Appendix D (App. 6a-7a). The order of the court of appeals to stay the trial court’s
orders is attached as Exhibit G (App. 12a). The orders of the supreme court to stay
the trial court’s orders are attached as Exhibit H (App. 13a) and Exhibit I (App. 14a).
JURISDICTION
The judgment of the supreme court was entered on June 5, 2020 (App. 8a-9a).
A timely petition for rehearing was thereafter denied on July 31, 2020 (App. 11a).
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Fundamental Right to Privacy:
The right to privacy refers to the concept that one's personal
information is protected from public scrutiny. U.S. Justice Louis
Brandeis called it "the right to be left alone." While not explicitly stated
in the U.S. Constitution, some amendments provide some protections.
United States Constitution, Amendment IV:
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures, shall
not be violated, and no warrants shall issue, but upon probable cause,
supported by oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.

2

STATEMENT OF THE CASE
A.

Factual Background
In May 2017, Petitioner, a Florida resident, became an out of state judgment

debtor following a trial in Texas, which he was unable to attend. The plaintiff in the
trial court case, Respondent Michael B. Tobolowsky, Executor of the Estate of Ira E.
Tobolowsky (“Respondent”), became the judgement creditor.
In September 2018, Respondent and his counsel began serving sixteen (16)
third-party subpoenas duces tecum on Petitioners financial institutions, email
provider, cell phone providers, and crossed over four (4) state borders to serve one on
Petitioner’s landlord in Florida, all in search of assets to satisfy the debt. The
aggressive subpoenas sought 34 months of historical digital records from each of the
companies, which included: Sprint Spectrum, L.P.; Verizon Wireless Telecom, Inc.;
and T-Mobile USA, Inc. The subpoenas commanded that if the cell phone providers
failed to produce the following documents for inspection and copying, they would be
in contempt of court:
“1. Specialized Location Records: All call, text and data connection
location information, related to all specialized carrier records that
may be referred to as NELOS (Network Event Location System), RTT
(Real Time Tool), PCMD (per Call Measurement Data), TDOA or
Timing Advance Information (also known as TrueCall), Mediation
Records, E9-1-1, and/or historical GPS/Mobile Locate Information
which shows GPS location (longitude and latitude) and Cell-Site and
sector of the device in relationship to the network when connected to
the network for the above referenced number.
2. Call / Text / Data Detail Records: All records associated with the
identified mobile number 512-659-7636, also to include all numbers
that communicate with this listed number relating to all delivered,
and undelivered inbound and outbound calls, text messages, and text
message content to any of the above fisted numbers, all voice mail and
3

all data connections from January 1, 2016 to October 1, 2018, and to
include Cell-site and sector, date, time, direction, duration, number
called or text to and/or received from, and bytes up/down, information
related to each call, text or data connection, all text message content,
and voicemails, as well as Call to Destination / Dialed Digits search
for all numbers listed above, Please preserve all cell-site and sector
information related to each call, text, or data connections.
3. Electronically Stored Records: All records associated with the
identified mobile number 512-659-7636, to include all stored
communication or files, including voice mail, text messages, including
numbers text to and received from and all related content, e-mail,
digital images (e.g., pictures), contact fists, video calling, web activity
(name of web site or application visited or accessed), domain accessed,
data connections (to include Internet Service Providers (ISPs),
Internet protocol (IP) addresses, (IP) Session data, (IP) Designation
Data, bookmarks, data sessions, name of web sites and/or applications
accessed), date and time when all web sites, applications, and/or third
party applications were accessed and the duration of each web site,
application, and/or third party application was accessed, and any
other files including all cell site and sector information associated
with each connection and/or , record associated with the cell number
identified as 512-659-7636.
4. Carrier Key related to call detail, text messages, data connections,
IP logs, IP Sessions, web site and/or application connections, and cell
site information.
5. Cell Site List(s): List of all cell-sites for the period January 1,2016 to
October 1, 2018, for all state(s) in which the above records used cell
locations. Cell site fists to include switch, cell-site number, name,
physical address, longitude and latitude, all sectors associated with
each cell-site, azimuth, and beam-width of each related sector.”
In November 2018, the trial court conducted a hearing to rule on various filed
motions to quash the third-party subpoenas. Citing Petitioner’s right to privacy was
at risk, the trial court entered an order granting his motions to quash Respondent’s
subpoenas served on Sprint Spectrum, L.P., Verizon Wireless Telecom, Inc., and TMobile USA, Inc. The presiding judge included a handwritten note on the order

4

stating that Petitioner’s documents to be obtained would contain confidential
information that shall remain confidential and not be disclosed to third parties.
On August 14, 2019, ten (10) months later and at the request of Respondent,
the trial court conducted a hearing to reconsider the motions that quashed the thirdparty subpoenas served on Petitioner’s cell phone providers. On August 22, 2019, the
trial court entered two orders reversing the order it entered the prior year. One order
denied Petitioner’s motions to quash, which were previously granted, and ordered the
cell phone providers to comply within a quick twenty-one (21) days. (App. 4a-5a.) The
second order modified the judge’s handwritten note, authorizing Respondent to
disclose the confidential documents to any third party of his choice upon agreement
by the third party to execute a confidentiality agreement. (App. 6a-7a.) Respondent
proceeded to enforce the subpoenas and seize years of Petitioner’s cell phone data
including: location records, historical GPS/mobile locate information, digital images,
text messaging content, electronically stored records, and much more.
B.

The federal question was reviewed by the trial court
On August 12, 2019, two days prior to the hearing and ten days prior to

entering the orders authorizing enforcement of Respondent’s subpoenas duces tecum,
Petitioner filed the first supplement to his response to Respondent’s motion for
reconsideration and modification of the trial court’s November 2018 order. For the
trial court’s consideration, the first supplement raised and preserved, in the original
trial court proceedings, the same federal question and U.S. Supreme Court decisions
as is presented here including, in part:

5

The United States Supreme Court in Carpenter v. United States 138 S.
Ct. 2206 (2018) reviewed the role of cell phones in society and the rights
of the government to obtain such information. The Supreme Court
reversed the holding of the federal Sixth Circuit, which had previously
held Carpenter lacked a reasonable expectation of privacy in cell phone
information known as location information collected by the FBI because
he had shared that information with his wireless carriers. The Supreme
Court in Carpenter held that Carpenter did have a reasonable
expectation of privacy vis a vie governmental seizure of records.
The Court ruled that the cell phone information constituted a Fourth
Amendment search requiring a warrant based upon probable cause.
“The Fourth Amendment protects not only property interests but certain
expectations of privacy as well. Katz v. United States 389 U.S. 347, 351.”
“The "basic purpose of this Amendment," our cases have recognized, "is
to safeguard the privacy and security of individuals against arbitrary
invasions by governmental officials." Camara v. Municipal Court of City
and County of San Francisco, 387 U.S. 523 (1967). The Founding
generation crafted the Fourth Amendment as a "response to the reviled
'general warrants' and 'writs of assistance' of the colonial era, which
allowed British officers to rummage through homes in an unrestrained
search for evidence of criminal activity." Riley v. California 134 S. Ct.
2473 (2014)
Tobolowsky, a private citizen cannot assert “official intrusion” under the
Fourth Amendment. Chief Justice Roberts, writing for the Court, stated:
“When an individual "seeks to preserve something as private," and his
expectation of privacy is "one that society is prepared to recognize as
reasonable," we have held that official intrusion into that private sphere
generally qualifies as a search and requires a warrant supported by
probable cause. Smith v, Maryland, 442 U.S., at 740, 99 S. Ct. 2577
(internal quotation marks and alterations omitted). Carpenter, at 2213.
“First, that the Amendment seeks to secure "the privacies of life" against
"arbitrary power." Boyd v. United States, 116 U.S. 616 (1886).
Petitioner fives approximately 1,300 miles from the trial court location, yet,
just like his multiple other motions requesting to appear at the hearings by telephone,
the motion Petitioner filed for the August 14, 2020 hearing was denied. The trial
court’s reasoning for granting such an abusive invasion of Petitioner’s privacy is
unknown. The trial court’s orders do not contain statements of reasoning. Careful

6

inspection of the reporter’s record and searching specific words reflects that
throughout the hearing the judge spoke the word “privacy” twice, in relation to
stipulations imposed on Respondent regarding disclosure of Petitioner’s the cell
phone data. The judge stated: “Everybody is entitled to some confidentiality with
respect to personal information.” However, reading and searching for the names
“Riley” and “Carpenter” comes up empty. None of this Court’s decisions or cases
submitted in Petitioner’s filings were discussed at the hearing and not even the
names “Supreme Court,” “U.S.,” or “United States” are mentioned throughout the
hearing.
The federal question seeking review was timely and properly raised in the
original trial court case, prior to the court’s rulings that authorized the warrantless
search and seizure of Petitioner’s cell phone information.
C.

The federal question was reviewed by the court of appeals
On September 4, 2019, Petitioner filed his Motion for Emergency Stay with the

court of appeals requesting the court stay enforcement of the trial court’s August 22,
2019 orders pending resolution of Petitioner’s concurrently filed Petition for Writ of
Mandamus. The first issue presented in the petition stated:
“The trial court abused its discretion by entering orders to serve
subpoenas on third parties to produce Relator’s personal, private,
privileged, and confidential information, violating Relator’s U.S.
Constitutional right to privacy pursuant to Carpenter v. United States
138 S. CT. 2206 (2018).”
Petitioner argued that the trial court abused its discretion when it entered its
orders that authorized Respondent to seize confidential cell phone data and disclose

7

it with minimal stipulation. Petitioner argued the fundamental constitutional right
to privacy through this Court’s decisions in Griswold v. Connecticut 381 U.S. 479
(1965), holding that the various Bill of Rights and the 1st, 3rd, 4th, 5th and 9th
Amendments create a "zone of privacy" for every citizen to be left alone and in
Carpenter, holding that that the government violates the Fourth Amendment to the
United States Constitution by accessing historical records containing the physical
locations of cell phones without a search warrant. After Carpenter, government
entities must obtain a warrant in order to access the information.
On September 10, 2019, the court of appeals granted Petitioner’s motion to
stay the trial court’s orders. (App. 12a.)
On October 14, 2019, Respondent filed his response in the case and argued that
Petitioner could not rely on Carpenter. Respondent proposed that a party to a criminal
action possess greater rights to privacy than a party to a civil action, stating:
“Carpenter protects criminal defendants from unreasonable searches
and seizures under the Fourth Amendment. However, Fourth
Amendment rights do not apply in civil proceedings and Relator cites no
case law for the proposition that Fourth Amendment standards
governing criminal matters govern discovery in civil cases.”
On January 10, 2020, the court of appeals entered an order denying
Petitioner’s petition for writ of mandamus and lifted the stay it issued on September
10, 2020. (App. la.) On the same date, the court of appeals issued a memorandum
opinion. (App. 2a-3a.) The court’s memorandum opinion had very little reasoning and
it skirted the federal question, simply stating;
“relator must show both that the trial court has clearly abused its discretion and that
relator has no adequate appellate remedy. After reviewing the petition, the

8

mandamus record, and real party’s response, we conclude relator has
not shown he is entitled to the relief requested.” (App. 2a-3a.)
The federal question seeking review was timely and properly raised in the
court of appeals, which had jurisdiction pursuant to Section 22.221 of the Texas
Government Code to “issue writs of mandamus and all other writs necessary to
enforce the jurisdiction of the Court.” The court’s jurisdiction to issue writs of
prohibition was also conferred by Article V, Section 5(c) and 6 of the Texas
Constitution. This Court has jurisdiction to review the judgment on a writ of
certiorari.
D.

The federal question was reviewed by the supreme court
On January 21, 2020, Petitioner filed his Motion for Emergency Stay with the

supreme court requesting the court stay enforcement of the trial court’s August 22,
2019 orders pending resolution of Petitioner’s concurrently filed Petition for Writ of
Mandamus. The first issue presented in the petition stated:
“Under Riley and its progeny and under Carpenter and its progeny, did
the trial court abuse its discretion when it granted a private citizen
access to historical cellphone location records after the U.S. Supreme
Court determined that acquisition of such records is a Fourth
Amendment search?”
Petitioner briefed the supreme court on the constitutional implications of this Court’s
decisions in Riley, Carpenter, Katz, and Smith, rights to privacy, and warrantless
search and seizure of cell phone digital content.
On January 30, 2020, the supreme court granted Petitioner’s motion to stay
the trial court’s order that authorized enforcement of the subpoenas duces tecum.

9

(App. 13a.) As well, the order requested Respondent to respond to the petition for writ
of mandamus on or before February 10, 2020.
On January 30, 2020, one of the third-party providers contacted Petitioner and
informed him that the company had already produced all of the documents responsive
to Respondent’s subpoena. With knowledge that Respondent was in possession of
private and confidential information, Petitioner filed another Motion for Emergency
Stay with the Court, intending to stop Respondent from disclosing and distributing
the constitutionally protected information.
On February 4, 2020, the supreme court granted Petitioner’s motion to stay
the trial court’s order that authorized Respondent to freely disclose the documents
and information responsive to the subpoenas. (App. 14a.)
On February 24, 2020, Respondent filed a letter in the case and informed the
supreme court that the third parties had already complied with the trial court’s order,
rendering the issues raised in the case, moot. Petitioner believes this issue is only
temporarily moot as Respondent is likely to serve a new round of subpoenas on the
same third parties at some time in the future.
On June 5, 2020, the supreme court published orders on causes and listed
Petitioner’s case under the heading: The Following Petitions for Writ of Mandamus
are Denied. (App. 8a-10a.) Notations to Petitioner’s case reflect that the supreme
court lifted the two stay orders it had previously issued.
On June 22, 2020, Petitioner timely filed a motion for rehearing in the supreme
court appeal. Though there no longer exists potential relief for Petitioner because his

10

private and confidential cell phone information has already been seized without a
warrant. However, the rulings of the lower courts that boldly conflict with the
decisions of this Court, could potentially have widespread deleterious effects on the
practices of the substantial debt collection industry, those who are in debt and own
cell phones, and the courts.
On July 31, 2020, the supreme court denied Petitioner’s request for rehearing.
(App. 11a.)
The supreme court had jurisdiction over this case under Government Code
Section 22.001(a)(3) and (6) because this case presented jurisprudentially important
questions regarding the constitutionality of subpoenas that sought digital content
and historical cellphone location records without search warrants.
The federal question was timely and properly raised with the trail court, court
of appeals and supreme court. This Court has jurisdiction to review the judgment on
a writ of certiorari.
REASONS FOR GRANTING THE PETITION
Today, approximately 1 in 3 U.S. adults or 77 million people have debt in
collections. Consumer debt grew to almost $14 trillion in 2019, and debt collection
cases continue to dominate court dockets. Most civil cases today are brought by
businesses against individuals for money owed. This case is not just about Petitioner;
it is about the other 77 million citizens whose lives are already difficult. If the federal
question here is not reviewed and corrected by this Court, Pandora’s box will have

11

been opened and 77 million people will likely resist vehemently a debt collector’s
warrantless Fourth Amendment seizure of the content stored on his or her cell phone.
A.

The court of appeals relied on Respondent’s interpretation of
Carpenter: A person suspected of a crime has greater rights and
protections under the U.S. Constitution a than a citizen who is not
suspected of a crime
Carpenter clearly establishes every person’s right to be free from the Fourth

Amendment searches and seizures created and caused by Respondent and the trial
court. With total disregard for this Court’s opinion, Respondent (a lawyer) took a left
turn and traveled down a very unexpected and bizarre path. In his response to
Petitioner’s petition for writ of mandamus, filed in the court of appeals, Respondent
asserts that Carpenter is not specific to rights of a person and instead, applies the
rights of court proceedings, specifically criminal proceedings, stating:
“Fourth Amendment rights do not apply in civil proceedings and Relator
cites no case law for the proposition that Fourth Amendment standards
governing criminal matters govern discovery in civil cases.”
In other words, if Respondent had been a police officer and he suspected Petitioner of
criminal activity, under Carpenter, Respondent would be required to have probable
cause and a search warrant to access and seize Petitioner’s cell phone data. However,
because Respondent is not a police officer and Petitioner is not suspected of criminal
activity, under Carpenter, Respondent can rightfully access, seize, and disclose to
third parties, Petitioner’s cell phone data. Respondent’s interpretation of Carpenter
is ludicrous.

12

Carpenter does not offer constitutional protections for legal proceedings; it
establishes rights and protections for people. And the protections apply to everyone’s
cell phones, even Respondent’s. In Carpenter, a person does not surrender all Fourth
Amendment protection by venturing into the public sphere. To the contrary, “what
[one] seeks to preserve as private, even in an area accessible to the public, may be
constitutionally protected.” Katz, 389 U. S., at 351—352. A majority of this Court has
already recognized that individuals have a reasonable expectation of privacy in the
whole of their physical movements. Jones, 565 U. S., at 430 (ALITO, J., concurring in
judgment); id., at 415 (SOTOMAYOR, J., concurring). Prior to the digital age, law
enforcement might have pursued a suspect for a brief stretch, but doing so “for any
extended period of time was difficult and costly and therefore rarely undertaken.” Id.,
at 429 (opinion of ALITO, J.). For that reason, “society’s expectation has been that
law enforcement agents and others would not— and indeed, in the main, simply could
not—secretly monitor and catalogue every single movement of an individual’s car for
a very long period.” Id., at 430.
Carpenter goes straight to the heart of the federal question at issue in this
case. In Carpenter, mapping a cell phone’s location over the course of 127 days
provides an all-encompassing record of the holder’s whereabouts. As with GPS
information, the time- stamped data provides an intimate window into a person’s life,
revealing not only his particular movements, but through them his “familial, political,
professional, religious, and sexual associations.” Id., at 415 (opinion of SOTOMAYOR,
J.). These location records “hold for many Americans the ‘privacies of life.’ Riley, 573

13

U. S., at

(slip op., at 28) (quoting Boyd, 116 U. S., at 630). And like GPS

monitoring, cell phone tracking is remarkably easy, cheap, and efficient compared to
traditional investigative tools. With just the click of a button, the Government can
access each carrier’s deep repository of historical location information at practically
no expense.
Respondent and the trial court’s order were far more aggressive than the 127
days of mapping a cell phone’s location. Respondent’s subpoenas duces tecum and the
trial court’s order retrieved 1,030 days of mapping Petitioner’s cell phone location.
The court of appeals offered scant reasoning in the only opinion for this Court
to study, stating:
“relator must show both that the trial court has clearly abused its
discretion and that relator has no adequate appellate remedy. After
reviewing the petition, the mandamus record, and real party’s response,
we conclude relator has not shown he is entitled to the relief requested.”
(App. 2a-3a.)
Carpenter and other cases decided by this Court that establish a person’s
rights to privacy were presented to the court of appeals in the petition and the
mandamus record with ripe with Carpenter, Riley, Katz and others. So if “after
reviewing the petition, the mandamus record, and real party’s response,” the court of
appeals concluded Petitioner had not shown he was entitled to the relief requested,
then the court of appeals only relied on Respondent’s response, which opposed the
petition for writ of mandamus based on the interpretation that Carpenter is a
protection for criminal proceedings, which was wrong.

14

B.

The orders and opinions of the trial court, court of appeals, and
supreme court have decided an important federal question in a way
that conflicts with relevant decisions of this Court
The orders and opinions of the three (3) state courts’ decided a federal question

that is important to many people in a way that completely contradicts this Court’s
decision. This Court held that cell phone data and location information is private and
cannot be seized by a debt collector with a subpoena. The state courts decided that
Carpenter is only relevant to proceedings and that because this case is civil,
Carpenter does not establish any rights or protections for Petitioner thereby
rendering his cell phone information unprotected by the Fourth Amendment.
The Stored Communications Act (SCA), part of the Electronic Communications
Privacy Act (ECPA), creates privacy protections for the content of stored
communications and the related non-content information. Orders made under
Section 2703(d), known as 2703(d) orders, can compel the production of the content
of stored communications or related non-content information, when “specific and
articulable facts showQ that there are reasonable grounds to believe that the contents
of a wire or electronic communication, or the records or other information sought, are
relevant and material to an ongoing criminal investigation.” This standard of
suspicion is considerably lower than the probable cause required for a typical
warrant.
With respect to CSLI, he points out that “the time-stamped data provides an
intimate window into a person’s life, revealing not only his particular movements,
but through them his ‘familial, political, professional, religious, and sexual

15

associations.’” In a footnote, Roberts notes that that court does not specifically hold
on whether fewer days of CSLI could be accessed without a warrant (a weeks’ worth
of records were accessed in Carpenter). “[W]e need not decide whether there is a
limited period for which the Government may obtain an individual’s historical CSLI
free from Fourth Amendment scrutiny, and if so, how long that period might be. It is
sufficient for our purposes today to hold that accessing seven days of CSLI constitutes
a Fourth Amendment search. ”A warrant is required for police to access cell site
location information from a cell phone company—the detailed geolocation
information generated by a cellphone’s communication with cell towers.
At issue in this case was whether cell-site location information (CSLI), could be
accessed by law enforcement without a warrant. CSLI is generated when a phone
communicates with a cell tower. Roberts concludes by emphasizing once again “the
deeply revealing nature of CSLI, its depth, breadth, and comprehensive reach, and
the inescapable and automatic nature of its collection,” writing that “the fact that
such information is gathered by a third party does not make it any less deserving of
Fourth Amendment protection.”
Modern cell phones are not just another technological convenience. With all
they contain and all they may reveal, they hold for many Americans "the privacies of
life," Boyd v. United States, 116 U.S. 616 (1886)
The federal question was timely and properly raised with the trail court, court
of appeals and supreme court. This Court has jurisdiction to review the judgment on
a writ of certiorari.

16

c.

The court of appeals failed to apply the proper legal standard in its
memorandum opinion, holding that Petitioner failed to “show both
that the trial court has clearly abused its discretion and that relator
has no adequate appellate remedy”
Precedent regarding access to cell phone data was established by this Court’s

decisions. Only law enforcement with a search warrant can access the same cell
phone content and information that Respondent accessed with a subpoena. And
Respondent is a lawyer, not a police officer.
The trial court abused its discretion by entering orders that were so clearly a
violation of Petitioner’s rights. Not only were the trial court’s decisions and orders
erroneous, they were outlandish. The orders entered are voidable because: (1) they
violate Tex. R. Civ. P. 329b; (2) they grossly violate Petitioner’s constitutional rights
to privacy; (3) they exceed the jurisdiction of the court; and (4) the court acted in a
manner inconsistent with due process of law.
When attacking a void order by mandamus, it is not necessary to show no
adequate remedy at law exists. See In re Southwestern Bell Telephone Co., 43 Tex.
Sup. Ct. J. 1007 WL 854253 (Tex. June 29, 2000) (per curiam). Mandamus will lie to
correct a void order, that is, an order the trial court had no power or jurisdiction to
render. See Urbish v. 127th Judicial Dist. Court, 708 S.W.2d 429, 431 (Tex. 1986)
(orig. proceeding). If an order is void, the relator need not show he lacks an adequate
appellate remedy, and mandamus relief is appropriate. In re Sw. Bell Tel. Co., 35
S.W.3d 602, 605 (Tex. 2000) (orig. proceeding).

17

D.

Mandamus is appropriate to correct the clear and indisputable legal
errors of the trial court, court of appeals, and supreme court.
Of the three (3) state courts, only the court of appeals offered a scintilla of

reasoning to support the orders granting access to Petitioner’s cell phone information
or the orders and opinion denying review of the trial court tragedy. The state courts
shied away from the obvious federal question and the wisdom and simplicity in
Carpenter, presented at length in the petition for mandamus and presented in the
mandamus record court. Instead the court relied on Respondent’s assertion that
Carpenter has no relevance in civil proceedings. The legal errors are indisputable and
mandamus is appropriate to correct the errors.
Finally, the decision below threatens to cause serious and immediate
repercussions in the debt collection industry. It creates incentives for overly
aggressive creditors to invade private citizen’s most intimate “zone of privacy” using
the courts to seize Fourth Amendment protected information.
CONCLUSION
The petition for a writ of certiorari should be granted.
Dated this 29th day of October 2020.
Respectfully submitted,

Brian E. Vodicka, Pro Se

18

